         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report




       EPA Should Stop Providing
       Estimates of Total Labor Hours
       to Contractors
       Report No. 09-P-0229

       September 9, 2009
Report Contributors:      Nancy Dao
                          Doug LaTessa
                          Kevin Lawrence
                          Michael Petscavage




Abbreviations

CMM          Contracts Management Manual
EPA          U.S. Environmental Protection Agency
EPAAR        Environmental Protection Agency Acquisition Regulation
FAR          Federal Acquisition Regulation
HQ           Headquarters
IGCE         Independent Government Cost Estimate
OAM          Office of Acquisition Management
OIG          Office of Inspector General
RTP          Research Triangle Park
SOW          Statement of Work
                       U.S. Environmental Protection Agency                                                09-P-0229
                       Office of Inspector General                                                  September 9, 2009




                       At a Glance
                                                                        Catalyst for Improving the Environment

Why We Did This Review            EPA Should Stop Providing Estimates of
The Office of Inspector           Total Labor Hours to Contractors
General (OIG) conducted an
audit of how the U.S.              What We Found
Environmental Protection
Agency (EPA) uses                 For 6 of the 22 contracts we reviewed, EPA provided the contractor with the
independent government cost       government’s estimate for total labor hours prior to receiving the contractor’s
estimates (IGCEs) to control      proposal. The Federal Acquisition Regulation provides that the government may
contract costs and receive the    use various cost analysis techniques to ensure a fair and reasonable price,
best value for dollars            including comparing proposed prices with IGCEs. Since EPA is providing total
expended. This report is being    labor hours to the contractor prior to receiving the proposal, EPA may be
issued to address a specific      diminishing its ability to obtain a fair and reasonable price.
issue regarding the sharing of
labor hours with contractors;     Contract management and program staff indicated that providing the total labor
another report will follow.       hours is common practice under level-of-effort-type contracts. Some informed us
                                  they provide contractors with estimated labor prior to receiving the proposal to
Background                        indicate to the contractor the level of effort EPA anticipates will be associated
                                  with the work assignment. Office of Acquisition Management managers pointed
An IGCE is a detailed estimate    out that EPA’s Acquisition Regulation (EPAAR) requires that estimated labor
of what a reasonable person       hours be provided to contractors for contracts in which work is ordered through
should pay to obtain the best     work assignments. Yet, an Office of Acquisition Management guide states that
value for a product or service.   information from the IGCE should not be provided to the contractor.
IGCEs are an essential tool to
ensure the best value is          We found that for most of the Superfund contracts reviewed, EPA did not
obtained for dollars expended.    routinely provide total labor hours to the contractor before receiving the proposal.
                                  Some EPA staff informed us they did not provide the total labor hours because
                                  doing so would undermine the negotiation process. When EPA provides its
                                  estimate of total labor hours before receiving the proposal, the contractor does not
For further information,          have an incentive to seek a more efficient or innovative approach to meet the
contact our Office of             government’s requirement.
Congressional, Public Affairs
and Management at
                                   What We Recommend
(202) 566-2391.

To view the full report,          We recommend that EPA revise EPAAR to eliminate the requirement that EPA
click on the following link:      include total estimated labor hours in work assignments or identify specific
www.epa.gov/oig/reports/2009/     circumstances in which the requirement should apply. EPA agreed with our
20090909-09-P-0229.pdf            recommendations to modify EPAAR and will communicate new guidance to
                                  contracting staff and those who prepare IGCEs.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                        September 9, 2009

MEMORANDUM

SUBJECT:       EPA Should Stop Providing Estimates of Total Labor Hours to Contractors
               Report No. 09-P-0229


FROM:          Melissa M. Heist
               Assistant Inspector General for Audit

TO:            Craig E. Hooks, Assistant Administrator
               Office of Administration and Resources Management


This is our report on the U.S. Environmental Protection Agency’s (EPA’s) practice of providing
total labor hours to contractors prior to receiving the contractor’s proposal. This report contains
findings that describe the problems the EPA Office of Inspector General (OIG) has identified and
corrective actions the OIG recommends. This report represents the position of the OIG and does
not necessarily represent the final EPA position. Final determinations on matters in this report
will be made by EPA managers in accordance with established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $141,313.

Action Required

In responding to the draft report, the Agency provided corrective action plans for addressing all
of the recommendations. Therefore, a response to the final report is not required. The Agency
should track corrective actions not implemented in the Management Audit Tracking System. We
have no objections to the further release of this report to the public. The report will be available
at http://www.epa.gov/oig.

If you or your staff have any questions, please contact me at 202-566-0899 or
heist.melissa@epa.gov; or Janet Kasper, Product Line Director, at 312-886-3059 or
kasper.janet@eap.gov.
EPA Should Stop Providing Estimates                                                                                            09-P-0229
of Total Labor Hours to Contractors




                                      Table of Contents
   Purpose........................................................................................................................    1

   Background .................................................................................................................       1

   Scope and Methodology.............................................................................................                1

   Results of Review .......................................................................................................          2

   Recommendations ......................................................................................................             6

   Agency Comments and OIG Evaluation ...................................................................                            6

   Status of Recommendations and Potential Monetary Benefits..............................                                           7



Appendices
   A       Agency Response ..............................................................................................            8

   B       Distribution .........................................................................................................    10
                                                                                          09-P-0229


Purpose
The U.S. Environmental Protection Agency’s (EPA’s) Office of Inspector General (OIG)
conducted an audit to determine whether EPA is effectively using independent government cost
estimates (IGCEs) to control costs on Agency contracts. During our review, we identified an
issue of immediate concern relating to EPA sharing labor hours with contractors. This report
addresses that specific issue; another report will follow.

Background
An IGCE is a detailed estimate of what a reasonable person should pay to obtain the best value
for a product or service and should include priorities and assumptions that exist at the time the
estimate is made. According to EPA’s Contracts Management Manual (CMM), IGCEs are
required for work ordered under a contract with a potential value in excess of $100,000. IGCEs
are used by the Federal Government as an essential tool to ensure the best value is obtained for
the dollars expended. EPA’s Office of Acquisition Management (OAM) prepared a guide that
states IGCEs “are an integral part of any effective acquisition program.”

At EPA, IGCEs are used in evaluating proposals for new contracts and contract modifications
and before issuing work assignment and task or delivery orders. EPA’s program offices are
responsible for preparing IGCEs based on the Statement of Work (SOW). EPA contracting
officers are responsible for contractual issues such as providing the Request for Proposal to the
contractor, which includes the SOW. Contracting officers are also responsible for assuring cost
reasonableness. Part 15.404-1 (a)(1) of the Federal Acquisition Regulation (FAR) states:

       The contracting officer is responsible for evaluating the reasonableness of the
       offered prices. The analytical techniques and procedures described in this
       subsection may be used, singly or in combination with others, to ensure that the
       final price is fair and reasonable. The complexity and circumstances of each
       acquisition should determine the level of detail of the analysis required.

During the early 1990s, the Government Accountability Office reported weaknesses in EPA’s
use of IGCEs. The Government Accountability Office found that EPA had not protected itself
against potentially wasteful spending by independently estimating how much the contracted work
should cost. In response to these reported weaknesses, in 1992 EPA Superfund program officials
required staff to, among other things, independently prepare cost estimates of contracted work
and use them in negotiating the contractors’ costs. EPA subsequently provided its staff with
training in preparing these estimates. The most current EPA document on IGCEs is the student
guide on IGCEs published in 1998, which provides general guidance on preparing IGCEs.

Scope and Methodology
We performed this audit from May 2008 to June 2009 in accordance with generally accepted
government auditing standards, issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We


                                                1
                                                                                        09-P-0229


believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

We reviewed the latest active contracts listing and selected our sample based on factors such as
program, contract type, geographic location, dollar value, and period of performance. During
preliminary research, we selected a nonstatistical sample of 12 contracts from several different
locations. During field work, we selected 10 additional contracts. A breakdown of these
contracts is in Table 1. The findings in this report relate to the five non-Superfund contracts
from preliminary research and one Superfund contract from field work (see contracts in Table 2).
Headquarters issued two of the non-Superfund contracts and the Superfund contract; Research
Triangle Park issued the other three non-Superfund contracts.

Table 1. Contracts Selected
 Type of Contract       Selected During Preliminary Research     Selected During Field Work
 Non-Superfund                            5                                   0
 Superfund                                7                                  10
 Total                                   12                                  10
Source: OIG analysis of data

For each contract, we interviewed the contracting officer and program personnel involved with
preparing IGCEs. We conducted interviews to obtain an understanding of how they go about
preparing and using IGCEs, both at the contract level and work assignment or task order level.
We judgmentally selected some work assignments or task orders from each contract for further
review. We reviewed documentation from the contracting officer’s files to gain an
understanding of cost estimates at the contract level and at the work assignment or task order
level if available. We also reviewed files maintained by the program personnel who prepared the
IGCEs for the work assignments and task orders we reviewed.

Results of Review
For 6 of the 22 contracts reviewed, EPA provided the contractor with the government’s estimate
for total labor hours prior to receiving the contractor's proposal. FAR provides that the
government may use various cost analysis techniques to ensure a fair and reasonable price,
including comparing proposed prices with IGCEs. EPA staff believe providing total labor hours
to the contractor is necessary because it is buying labor hours and doing so makes the acquisition
process more efficient. Further, OAM managers pointed out that the EPA’s Acquisition
Regulation (EPAAR) requires that estimated labor hours be provided to contractors for contracts
where work is ordered through work assignments. IGCEs are one of the tools used to ensure the
final agreed-to price is fair and reasonable. When EPA provides total labor hours to the
contractor prior to receiving the proposal, EPA may be diminishing its value as a tool to ensure a
fair and reasonable price.

FAR Section 15.404-1 states that the objective of proposal analysis is to ensure that the final
agreed-to price is fair and reasonable. The FAR identifies IGCEs as a tool for reviewing
proposed costs or prices. The CMM also states that the IGCE is one of the tools the contracting
officer uses to determine whether the contractor’s proposed price is fair and reasonable. EPA
can compare the IGCE to the contractor’s proposal to assess the reasonableness of the price. The


                                                2
                                                                                             09-P-0229


CMM refers project officers to the student guide for additional guidance on preparing IGCEs.
EPA’s guide on preparing and using IGCEs states, “Any IGE [Independent Government
Estimate] developed for a current contract must never be disclosed to the contractor prior to the
contractor’s submission in response to the proposed Statement of Work or modification.” The
guide also explains that IGCEs can be compared to proposals and workplans to detect similarities
and differences. This can help EPA determine whether proposals overstate or understate work,
the SOW contains sufficient detail, or prices are too high or low.

When EPA provides total labor hours to the contractor prior to receiving the proposal, it may be
diminishing the value of the IGCE in assessing the reasonableness of the contractor’s proposal.
Though EPA does not provide the entire IGCE to the contractor, it does provide the contractor
with the total amount of labor hours it is willing to approve prior to receiving and reviewing the
contractor’s estimate. Of the contracts, contract task orders, and work assignments reviewed,
EPA provided the contractor with the total amount of labor hours it is willing to approve prior to
receiving and reviewing that contractor’s estimate for five non-Superfund contracts and one
Superfund work assignment, as shown in Table 2.
Table 2: Comparison of Contractor’s Proposed Direct Labor Hours to EPA’s Labor Estimate
                                                        EPA’s                      Final       Percentage of
                                        Work            Labor     Contractor’s   Approved       Contractor’s
                    Program         Assignments/        Hour       Proposed       Labor         Proposal to
  Contract           Office         Task Orders        Estimate   Labor Hours     Hours       EPA’s Estimate
 EP-D-05-088        Office of      WA 20806002S             373           383          383                3%
                   Research        WA 208RD018R           4,485         4,335        4,335               -3%
                      and          WA 20804541S             271           280          280                3%
                  Development
 EP-D-07-109        Office of         WA 0-01              910            910          910                 0%
                   Research           WA 0-02            1,500          1,496        1,496                 0%
                      and             WA 0-03              820            820          820                 0%
                  Development         WA 0-04              400            400          400                 0%
                                      WA 0-05            4,700          5,212        5,212                10%
                                      WA 0-06              865            887          887                 2%
                                      WA 0-07              750            750          750                 0%
                                      WA 0-08              700            700          700                 0%
                                      WA 0-09            1,310          1,310        1,310                 0%
                                      WA 0-10              100            100          100                 0%
 EP-D-05-002      Office of Air       WA 1-01            4,500          4,500        4,500                 0%
                      and             WA 1-02            1,620          1,600        1,600                -1%
                   Radiation          WA 1-03              465            350          350               -33%
                                      WA 1-04              170            200          200                15%
                                      WA 1-05              670            622          670                -8%
                                      WA 2-01            4,700          4,700        4,700                 0%
 EP-W-06-001      Office of Air       TO 304             7,930          7,900        7,900                 0%
                      and             TO 310             7,985          9,057        9,057                12%
                   Radiation          TO 314             2,005          1,904        1,904                -5%
 EP-W-06-093      Office of Air       TO 101             4,371          4,546        4,546                 4%
                      and             TO 105             2,200          2,200        2,200                 0%
                   Radiation          TO 107            10,095         11,995       11,995                16%
 EP-W-05-060       Superfund          WA 1-08              472            471          471                 0%
                                      WA 1-11            1,328          1,397        1,397                 5%
Source: OIG analysis of EPA data




                                                   3
                                                                                         09-P-0229


For 21 of 27 work assignments or task orders under these contracts, the difference between the
EPA labor hour estimate and the contractor’s proposal was within 5 percent. Moreover, for 13 of
the work assignments or task orders, there was no difference between what EPA had in the IGCE
and what the contractor proposed. Below are two examples in which the contractor’s proposed
total hours matched exactly the government’s estimated total hours.

   •   For contract EP-D-05-002, work assignment 2-01, EPA estimated the total labor hours at
       4,700. EPA provided this figure to the contractor, which also estimated 4,700 total hours.
       The contractor’s cost estimate was slightly lower (3.6 percent) than EPA’s estimate
       ($489,553 versus $507,784). This difference was due to differences in the proposed labor
       mix. EPA automatically accepted this cost variance based on the minor difference.

   •   For contract EP-D-07-109, work assignment 0-03, EPA estimated 820 total labor hours.
       EPA provided this figure to the contractor, which also estimated 820 hours. The
       contractor’s cost estimate was higher then the EPA IGCE ($96,259 versus $91,284),
       again due to differences in the proposed labor mix.

Labor hours generally represent the majority of the contract costs. For example, for the 4,700
total labor hours discussed above, labor and corresponding associated costs (fringe, overhead,
etc.) represented about 86 percent of the total proposed amount ($422,000 of the $490,000 total)
for this work assignment. When EPA provides the contractors with the total labor hours and the
labor rates are either fixed or can be estimated based on historical data, the contractors can
reasonably determine the labor and corresponding cost EPA is willing to accept before preparing
their proposals.

According to the FAR, a cost analysis is used to evaluate the separate cost elements of the
contractor’s proposal. As part of this cost analysis, EPA staff would compare the hours and rates
contained in the proposal to those estimated within the IGCE. Such an analysis would allow
EPA staff to determine whether proposals overstate or understate work, or prices are too high or
low, and determine the fair and reasonable price for labor hours. If EPA had received the
contractor’s proposal without providing an estimate of total labor hours, it could have conducted
a valid cost analysis for labor hours. However, by providing estimated labor hours, EPA
diminished its ability to use the IGCE to assess the reasonableness of labor hours in the proposal.

Based on the language in the CMM, the SOW should provide sufficient information for the
contractor to develop its proposal. CMM Section 11.1.5.1 states:

        . . . the SOW is the basis for preparation of the Independent Government Cost
       Estimate (IGCE). The IGCE is developed by the program office and is based on
       the individual elements of cost estimated for each of the components and
       sub-components of the SOW. The IGCE is one of the tools used by the CO
       [contracting officer] to determine if the contractors proposed price/cost is fair
       and reasonable.

       The contractor develops and prepares their proposal from the SOW. The
       contractor must understand the SOW requirements sufficiently to develop its


                                                 4
                                                                                          09-P-0229


       technical, management and price/cost proposals. The SOW must provide enough
       information without need for further explanation from the Government.

The SOWs for the six contracts listed above contained deliverables that lessened the need for
EPA to provide hours. While the six contracts were level-of-effort (labor hours) contracts, they
also contained specific deliverables. For example, under EPA Contract EP-D-05-088, we
reviewed three work assignments. The purpose of two of the three work assignments was to
have the contractor provide to EPA historical aerial photographs of sites where EPA was
conducting work. If needed, both work assignments required the contractor to research and
purchase additional historical aerial photographs. Both work assignments also required the
contractor to provide EPA with a historical photo analysis report using 8 to 10 years of
photographic coverage. The primary purpose of these work assignments was to provide EPA
with a specific deliverable rather than EPA simply purchasing labor hours from the contractor.
As such, the practice of providing the contractor with EPA’s estimate of the number of hours
required to complete these tasks is unnecessary.

EPA contract and program staff offered several reasons for providing IGCE information to the
contractors. Contract management and program staff indicated that it is common practice to
provide the contractor with the government’s estimate of total labor hours. Some EPA contract
management staff informed us they provide contractors with estimated labor prior to receiving
the proposal because they are buying labor hours through level-of-effort contracts. OAM
managers said they do this because they believe it makes the process more efficient. They also
pointed out that EPAAR requires that estimated labor hours be provided to contractors for
contracts where work is ordered through work assignments. Specifically, EPAAR states:

       Each work assignment will include (1) a numerical designation, (2) the estimate
       of required labor hours, (3) the period of performance and schedule of
       deliverables, and (4) the description of the work.

OAM informed us this EPAAR clause is based on FAR 16.306 (d)(2) that defines one type of
cost-plus-fixed-fee contract where the Agency describes the scope of work in general terms and
obligates the contractor to devote a specified level of effort for a stated time period. OAM stated
that the government provides the hours as a control mechanism to allocate the level of effort it
has decided to devote to each specific project. While the control mechanism is beneficial and
may be necessary for some cost-type contracts, the level-of-effort information should be added
after EPA receives the contractor’s work proposal and as part of the negotiation of the final
SOW. Providing the hours after negotiation provides the control mechanism for the contract
while allowing the negotiation process to continue to be used to obtain the best value.

The EPAAR requirement diminishes the value of the IGCE process in analyzing the contractor’s
proposal. EPA needs to rescind the EPAAR requirement for two primary reasons. First, the
requirement to include an estimate of required labor hours in the work assignment reduces EPA’s
ability to determine whether it is getting a fair and reasonable price. Second, level-of-effort type
contracts contain SOWs that should adequately describe EPA’s need and contractors can use
them to estimate the required labor hours to complete a task.




                                                 5
                                                                                         09-P-0229


Despite the EPAAR clause requiring that the total hours be provided, we found that contracting
officers for most of the Superfund contracts we reviewed did not provide the hours to the
contractor prior to receiving the proposal. We spoke with project officers and contracting
officers, who informed us they did not provide the total labor hours because doing so would
undermine the negotiation process. We noted instances where the contractors’ proposed hours
and/or dollars were less than the government’s IGCE. For example, one work assignment under
a Superfund contract contained an IGCE that estimated approximately $440,000 (4,015 total
labor hours). The contractor proposed approximately $381,000 (3,840 total labor hours) and the
final negotiated price was approximately $363,000 (3,532 total labor hours).

By providing contractors with the government’s estimate for total labor hours prior to receiving
the proposal, EPA may be jeopardizing the overall integrity of the cost estimating process. As
shown in Table 2, when contractors are provided with an estimate of labor hours, the IGCE and
contractor’s cost proposal are generally similar in amount. Since EPA provides its estimate of
total labor hours before receiving the proposal, the contractor does not have an incentive to seek
a more efficient or innovative approach to meet the government’s requirement.

Recommendations
We recommend that the Assistant Administrator for Administration and Resources Management:

   1. Revise EPAAR to eliminate the requirement that EPA include total estimated labor hours
      in work assignments or identify specific circumstances in which the requirement should
      apply.

   2. Communicate to contract management and program staff who prepare and use IGCEs
      when estimates of total labor hours, or any other cost-related estimates, should not be
      provided to contractors prior to receiving the contractor’s proposal.

Agency Comments and OIG Evaluation
EPA agreed with our recommendations and will modify the EPAAR clause on providing
required hours for work assignments. However, EPA believes circumstances exist on certain
contracts where a contracting officer needs to be able to provide the expected level of services
needed to the contractor. EPA stated that contracts where the nature of the work is nonspecific
with changing circumstances, such as clean-up services at new hazardous waste sites or research
and development in new areas with uncertain potential results, fall into this category. EPA stated
that in such cases, unless the contracting officer provides the contractor with the estimated level
of effort in terms of hours, the contractor will be left guessing at this level, which might
needlessly delay getting the program customer the required services. EPA agreed to revise
EPAAR and provide guidance to contracting officers regarding their discretion to reveal
estimated labor hours to contractors, depending on the circumstances of the individual
contracting action. EPA will issue the interim guidance by November 1, 2009, and revise the
EPAAR clause, which may take an additional 9 months. See EPA’s full response in
Appendix A. The Agency’s proposed actions will address the recommendations.



                                                 6
                                                                                                                                          09-P-0229



                                   Status of Recommendations and
                                     Potential Monetary Benefits

                                                                                                                                POTENTIAL MONETARY
                                                  RECOMMENDATIONS                                                                    BENEFITS

                                                                                                                    Planned
Rec.        Page                                                                                                   Completion   Claimed    Agreed To
No.          No.                        Subject                        Status1            Action Official             Date      Amount      Amount

 1            6    Revise EPAAR to eliminate the requirement that        O           Assistant Administrator for    8/1/2010
                   EPA include total estimated labor hours in work                      Administration and
                   assignments or identify specific circumstances in                  Resources Management
                   which the requirement should apply.

 2            6    Communicate to contract management officials and      O           Assistant Administrator for   11/1/2009
                   program officials who prepare IGCEs when labor                       Administration and
                   estimates, or any other cost-related estimates,                    Resources Management
                   should not be provided to contractors prior to
                   receiving the contractor’s proposal.




     1   O = recommendation is open with agreed-to corrective actions pending.
         C = recommendation is closed with all agreed-to actions completed.
         U = recommendation is undecided with resolution efforts in progress.




                                                                                 7
                                                                                          09-P-0229


                                                                                    Appendix A

                                 Agency Response
                                         August 20, 2009

MEMORANDUM

SUBJECT:       Response to Draft Audit Report: EPA Should Stop Providing Estimates of Total
               Labor Hours to Contractors, Report Number OA-FY08-0255

FROM:          Craig E. Hooks
               Assistant Administrator

TO:            Janet Kasper
               Director, Contracts and Assistance Agreements
               Office of the Inspector General

        We appreciate the opportunity to comment on the report entitled “EPA Should Stop
Providing Estimates of Total Labor to Contractors,” dated July 20, 2009. Our comments on the
report and recommendations are below:

Recommendation 1 - We recommend that the Assistant Administrator for Administration
and Resources Management revise the EPAAR (48 CFR, Section 1552.211-74(b) to
eliminate the requirement that EPA include total estimated labor hours in work
assignments.

Response - We agree that the EPAAR clause on work assignments (WAs) should be modified,
and that better guidance is needed for contracting officers (COs) on issuing WAs. However, we
also believe that circumstances exist on certain contracts where a CO needs to be able to provide
the expected level of services needed to the contractor. EPA contracts where the nature of the
work is non-specific, with changing circumstances, such as clean-up services at new hazardous
waste sites, or research and development in new areas with uncertain potential results, fall into
this category. In such cases, unless the CO provides the contractor with the estimated level of
effort in terms of hours, the contractor will be left guessing at this level, which might needlessly
delay getting he program customer the required services. We recognize the Agency’s ability to
more clearly specify the expected customer needs and contract work outcomes has greatly
improved on perhaps a majority of WA contracts. Accordingly, we agree that the EPAAR clause
on WAs should be modified, to provide better guidance to COs on issuing WAs. The new
guidance will clarify our position regarding COs having the discretion to reveal estimated labor
hours to the contractor, depending on the circumstances of the individual contracting situation.
We will issue interim guidance by November 1, 2009, while the revised EPAAR clause is
promulgated. Please note that it usually takes at least 9 months to develop and implement a new
EPAAP clause; accordingly, we will issue interim guidance in the meantime for the COs to use.




                                                 8
                                                                                      09-P-0229


Recommendation 2 - We recommend that the Assistant Administrator for Administration
and Resources Management communicate to contract management and program staff who
prepare and use IGCEs that estimates of total labor hours, or any other cost related
estimates, should not be provided to contractors prior to receiving the contractor’s
proposals.

Response - We agree with the recommendation to communicate the new interim WA guidance,
as described above, to all affected parties who prepare and use IGCEs by November 1, 2009.

      Should you have any questions regarding this response, please contact
John Oliver, Acting Director, Policy, Training & Oversight Division in the Office of Acquisition
Management, at (202) 564-4399.


cc:    John Gherardini
       Cris Thompson
       Joan Wooley
       John Oliver
       Elena de Leon
       Bernie Davis-Ray
       Sandy Womack-Butler
       Brandon McDowell




                                               9
                                                                                  09-P-0229


                                                                              Appendix B

                                   Distribution

Office of the Administrator
Assistant Administrator for Administration and Resources Management
Acting Director, Office of Acquisition Management, Office of Administration and
    Resources Management
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Administration and Resources Management
Acting Inspector General




                                            10
